Kevin M. Blair
Office: 517.377.0716
kblair@honigman.com

April 10, 2020

Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Attn: Mr. Donald Baker
Re:

M. W. Watermark LLC v Evoqua Water Technologies
U. S. Supreme Court Docket No. 19-1079

Dear Mr. Baker:
Pursuant to your email of April 8, 2020, please accept this letter as Respondent’s Corporate
Disclosure Statement, with apologies for the oversight. Pursuant to Supreme Court Rule 12.1, 40
copies of this letter are included herewith.
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, Respondent Evoqua Water Technologies LLC states
that it is a wholly owned subsidiary of EWT Holding III Corp., which is a wholly owned subsidiary
of EWT Holding II Corp., which is a wholly owned subsidiary of Evoqua Water Technologies
Corp., a publicly traded company. No other publicly traded companies own 10% or more of
Respondent’s stock.
Thank you for your assistance and attention to this matter.
Very truly yours,
HONIGMAN LLP
/s/ Kevin M. Blair
Kevin M. Blair
c.

Mr. G. Thomas Williams

Honigman LLP • 222 North Washington Square • Suite 400 • Lansing, Michigan 48933-1800
34431831.1

